HHS/OIG-Audit--"Review of the State of Georgia's Independent Living Program, (A-04-97-00113)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the State of Georgia's Independent Living Program," (A-04-97-00113)
October 30, 1998
Complete
Text of Report is available in PDF format (1.1 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Georgia's Independent Living Program for Fiscal Year (FY) 1996.
The objective of our review was to determine if youth were successfully transitioning from foster care to independent adult
living when they became ineligible for foster care maintenance payments at the age of 18.
Based on the limited information available, we were unable to conclude if youth made a successful transition from foster
care to independent adult living when they became ineligible for foster care maintenance payments. However, we did note
areas where the State could improve its administration of the program. These areas are: (1) outcome measures, (2) written
transitional living plans, and (3) program reporting.
The State lacked outcome measures to accurately assess whether youth made a successful transition from foster care to
independent adult living. Specifically, the State did not perform Administration for Children and Families (ACF) required
90-day follow-ups after participants complete the program. The 90-day outcome measurement was not a priority for the State;
however, it is essential to assess program performance.
We recommend the State give priority to performing 90-day follow-ups for discharged youth.
Written Transitional Living Plans (the plan) were not always completed, updated and maintained in the case files as required
by the State's foster care policies and procedures. Generally, the coordinators did not consider preparation and maintenance
of the plans a priority. As a result, the State lacks the necessary tools to assist in assessing the youth's progress in
transitioning to independent living.
We recommend the State ensure the coordinators consider preparation and maintenance of the plans a priority.
The "State Annual Program Report" for FY 1996 was inaccurate and not adequately supported. The Independent Living
coordinators used their own interpretations of the State's guidance when submitting youth participation results. Also,
the coordinators were not aware they should maintain demographic information for youth being reported to the State. Inaccurate
information precludes either ACF or the State from adequately accessing the effectiveness of the program.
We recommend the State: (1) establish a clear definition of when youth should be reported as served; (2) insure the coordinators
report program activity consistently and maintain detailed documentation to support information submitted in the State's
annual program reports.
In written comments to our draft report, State officials generally disagreed with our findings and recommendations.